U.S. Department of                       Inspector General        Office of Inspector General
Transportation                                                    Washington, DC 20590
Office of the Secretary
of Transportation



June 30, 2010

The Honorable Mike Crapo                    The Honorable Mike Simpson
United States Senate                        United States House of Representatives
Washington, DC 20510                        Washington, DC 20515

The Honorable James E. Risch                The Honorable Walt Minnick
United States Senate                        United States House of Representatives
Washington, DC 20510                        Washington, DC 20515

Dear Senators Crapo and Risch and Representatives Simpson and Minnick:

Thank you for your letter of September 15, 2009, which raised concerns with the
Federal Aviation Administration’s (FAA) proposal to transfer the terminal radar
approach control (TRACON) services currently provided at Boise to Salt Lake City
and questions about the cost estimates and the safety impact associated with the move.
You asked us to conduct a joint review of these issues with FAA’s Air Traffic Safety
Oversight Service (ATOS). As agreed with your staff, our office examined FAA’s
costs, and the Agency’s ATOS separately addressed the safety issues. Accordingly,
we are providing the results of our cost study in the enclosed briefing, which we
discussed with your staff on April 16, 2010.

The scope of our cost review and analysis was FAA’s (1) original 2005 business case
and Memorandum of Understanding with the city of Boise, (2) subsequent
reassessments (in fiscal years 2006 and 2009) and underlying assumptions that drove
projected costs and savings, and (3) supporting documentation. In addition, we met
with FAA terminal operations officials in Washington, DC, to obtain their
perspectives on the transfer and the associated costs based on past and current
assumptions. We also visited air traffic facilities in Boise and Salt Lake City and, as
part of that work, interviewed FAA officials, air traffic controllers, and
representatives from the National Air Traffic Controllers Association.

Your letter specifically cited concerns over the lack of transparency that FAA
provided with regard to estimated costs for the TRACON transfer, and our review
identified similar concerns. While FAA had a process to evaluate the estimated costs
and savings associated with the move from Boise to Salt Lake City, FAA’s business


CC-2009-099
                                                                                                                               2


case was flawed and lacked transparency. Perhaps most importantly, FAA did not
adequately consider certain costs associated with this move, which are further detailed
in the enclosure. On June 11, 2010, FAA officials informed us that they had
cancelled the planned transfer of staff and service from Boise to Salt Lake City. The
following summarizes the results of our review.

FAA’s business case did not reflect changes in key assumptions. Assumptions that
drove the projected $24 million savings in the original 2005 business case for moving
TRACON operations to Salt Lake City changed, but FAA did not adjust the 2009
business case accordingly. Specifically, FAA originally planned a facility co-location
and estimated that 81 percent of a projected $24 million in savings would be from
manpower costs. However, in 2009, FAA planned a facility consolidation instead and
estimated that 10 additional controllers would be needed in Salt Lake City to manage
Boise air traffic. This equates to potentially more than $986,000 in base salary costs
alone per year and more than $19 million over 20 years. Rather than address these
additional manpower costs, FAA’s 2009 reassessment considered manpower
costs/savings as “neutral.” This was an unrealistic assumption since a consolidation, 1
as opposed to the co-location 2 that was originally planned, would have generated a
significant pay raise for controllers relocating to Salt Lake City.

FAA’s business case understated the $3.12 million in investment costs associated
with relocating the TRACON to Salt Lake City. We estimate that as much as
$12 million in additional costs were not factored into FAA’s projected costs. These
include modifications to the existing Standard Terminal Automation Replacement
System (STARS) at Salt Lake City to accommodate the Boise airspace requirements,
estimated to cost between $2 million and $8 million. Also, FAA did not factor in
additional controller training at Salt Lake City with estimated costs between
$2 million and $4 million.

FAA’s basis for facility lifecycle costs may have been unrealistic. FAA based
lifecycle costs on a 40-year model, which is the projected normal life span for an air
traffic facility. However, the Salt Lake City facility is already 11 years old, reducing
its lifespan by one-fourth. Therefore, comparing costs over a 40-year span for both
facilities may not have been appropriate given that Boise is a new facility.
Additionally, FAA’s analysis failed to address facility upgrades that may have been
needed at Salt Lake City to accommodate an increased workforce in the near and long
term.



1
    Consolidation combines TRACONs for numerous airports within a common facility. Controllers assigned to a
    consolidated facility certify on all areas and are paid equally, regardless of how many aircraft for which their area is
    responsible.
2
    Co-location is defined by FAA as housing several different level TRACONs, which provide air traffic control to different
    areas, into a single facility where controllers would only be certified to work a specific area (such as Boise) at a pay band
    appropriate for the area they are controlling.


CC-2009-099
                                                                                     3


FAA’s cost estimates of the option to keep the TRACON in Boise were
questionable. While FAA understated the costs to relocate the TRACON, FAA
overstated investment costs to keep the TRACON at Boise. Approximately
$7.4 million (or 89 percent) of FAA’s projected investment costs for keeping the
TRACON in Boise were questionable. For example, $4.15 million in construction
costs for the Boise facility appear double-counted since these costs would have
already been accounted for as part of the $15.5 million provided by Congress for
construction of the new tower. In addition, FAA’s business case included
$2.25 million, plus associated installation costs, for upgrading the current Boise
terminal automation system to STARS. However, FAA’s plan to rely on STARS may
not have been the most cost effective approach. First, FAA currently does not have
any additional STARS systems available or on contract. Second, in its current
configuration, STARS needs several technical upgrades to accommodate NextGen
technologies, including a new satellite-based surveillance system that is currently
being deployed. FAA also plans to upgrade current terminal automation systems, like
the one now in service at Boise, for significantly less cost than installing STARS.

In conclusion, our work shows that FAA must periodically reassess business cases for
consolidating air traffic facilities to evaluate whether the assumptions underlying any
projected cost savings remain valid and adjust the course of action as appropriate.
FAA’s business case and the two subsequent reassessments were “snapshots” in time,
taken years apart, and did not reflect the actual conditions on the ground. As we
observed in Boise, the new tower could have been equipped with a fully functional
TRACON, without any upgrades, in space already built and allocated specifically for
that purpose. However, FAA Headquarters officials were under the impression that
retaining the TRACON in Boise would require significant upgrades to the building
and factored in additional costs for that purpose. FAA may have avoided this
situation with periodic FAA Headquarters staff visits to the site. This highlights the
need for improved coordination and communication between FAA Headquarters and
air traffic facilities in the field.

Facility realignments and consolidations will assume greater importance as FAA
moves forward with the Next Generation Air Transportation System. Therefore, the
Agency’s processes for estimating the costs and expected benefits of realignment
efforts will warrant greater oversight. We discussed the results of our work with
FAA’s Chief Operating Officer, and he agreed that it will be important to have sound
business cases in the future for realigning and consolidating FAA facilities.




CC-2009-099
                                                                                   4


If I can answer any questions or be of further assistance, please contact me at (202)
366-1959 or Matthew E. Hampton, Deputy Assistant Inspector General for Aviation
and Special Program Audits, at (202) 366-1987.

Sincerely,



Calvin L. Scovel III
Inspector General

Enclosure

cc: FAA Administrator
    FAA Deputy Administrator
    Vice President of Terminal Services, Air Traffic Organization




CC-2009-099
                                                             Enclosure
                                                            Page 1 of 11




              Requested by the Idaho Congressional Delegation




CC-2009-099
                                                                                                             Enclosure
                                                                                                            Page 2 of 11




         Idaho Congressional Delegation Request
          ◦   On September 15, 2009, the Idaho Congressional Delegation (comprised of Senators Mike Crapo
              and James Risch and Representatives Mike Simpson and Walt Minnick) requested that our office and
              FAA’s Air Traffic Safety Oversight Service (ATOS) examine FAA's cost estimates for the planned
              transfer of the Boise Terminal Radar Control (TRACON) facility to Salt Lake City.


          ◦   The Members cited concerns over FAA's lack of transparency with data and specifically questioned
              the (1) cost effectiveness of relocating the radar and (2) assumptions that drove FAA's original
              proposal in 2005.

         Objectives
          ◦   As agreed with congressional staff, we examined the soundness of FAA’s business case and the
              costs presented. FAA’s ATOS reviewed safety concerns.


         Scope & Methodology
          ◦   Our scope of review and analysis focused on FAA's original 2005 business case and Memorandum
              of Understanding with the city of Boise, subsequent FAA relooks, the underlying assumptions
              supporting the transfer, and FAA documentation for the projected costs and savings.


          ◦   We visited terminal and TRACON facilities in Boise and Salt Lake City to (1) interview FAA officials,
              NATCA representatives, and controllers and (2) tour air traffic facilities.




CC-2009-099
                                                                                            Enclosure
                                                                                           Page 3 of 11




         After replacing the main passenger terminal at Boise/Gowen Field, FAA and the City of
          Boise determined that a new tower was also required. To date, Congress has provided
          FAA with $15.5 million for the replacement of the Boise tower, and construction is
          underway.


         FAA also concluded that TRACON operations, if realigned to Salt Lake City, would result
          in benefits and efficiencies for operations and avoid costs by utilizing space and
          equipment available at the Salt Lake TRACON.


         Movement of TRACON operations originally included the relocation of 14 air traffic
          controllers from Boise to Salt Lake City.


         At the time of our review, the movement of the TRACON, to include transferring
          controllers and commissioning the new tower, was planned for January 2011. FAA has
          since decided against relocating Boise TRACON operations to Salt Lake City.




CC-2009-099
                                                                                                                                                              Enclosure
                                                                                                                                                             Page 4 of 11




          FAA conducted an analysis of several alternatives before deciding to proceed with the
           Boise TRACON Realignment.

          ◦ Original 2005 FAA Business Case: Considered Four Alternatives
              • Alternative 1 - Continue operations in existing facility (no action)
              • Alternative 2 - Modernize existing Air Traffic Control Tower (ATCT) and TRACON
              • Alternative 3 - Replace ATCT and base building and co-locate TRACON operations at Salt Lake City TRACON
                (S56)
              • Alternative 4 - Replace existing ATCT and TRACON

          ◦ FAA considered Alternatives 3 & 4 as acceptable to correct existing problems at Boise and
            recommended and proceeded with Alternative 3 (see note 1).

          ◦ 2006 Reassessment
              • Conducted a relook of four original 2005 alternatives
              • FAA again concluded that Alternative 3, moving Boise TRACON operations and co-locating them at Salt Lake
                City TRACON - S56, was the most cost effective alternative.

          ◦ 2009 Reassessment
              • Second relook of alternatives focused only on the original Alternatives 3 and 4 (see note 2).
              • “Consolidation” of Boise TRACON to Salt Lake City TRACON mentioned for first time—as opposed to a
                TRACON “co-location” as planned in 2005—having significant implications on manpower savings.

               Notes: 1) Co-location is defined by FAA as housing several different level TRACONs, which provide air traffic control to different areas, into a single
                       facility where controllers would only be certified to work a specific area (such as Boise) at a pay band appropriate for the area they are
                       controlling.
                     2) Consolidation combines TRACONs for numerous airports within a common facility. Controllers assigned to a consolidated facility certify on
                       all areas and are paid equally, regardless of how many aircraft for which their area is responsible.



CC-2009-099
                                                                                                            Enclosure
                                                                                                           Page 5 of 11




       FAA’s business case for relocating the TRACON from Boise to Salt Lake City was flawed and
        lacks transparency based on a number of factors:

         ◦ Key factors used in 2005 that drove FAA’s claims of nearly $24 million in savings—81 percent from
           anticipated manpower savings—changed, but FAA did not adjust its 2009 business case accordingly.
           Specifically, FAA originally planned a TRACON “co-location” but in 2009 planned a “consolidation.”

         ◦ FAA considered manpower and training costs as “neutral”; this was unrealistic since a consolidation of
           Boise TRACON to Salt Lake City would have generated a significant pay raise for controllers relocating
           to the Salt Lake City TRACON, and FAA would not have involuntarily relocated or fired any controller at
           Boise who did not agree to relocate.


         ◦ Projected $3.12 million investment costs for relocating the TRACON to Salt Lake City—the selected
           alternative—were understated.


         ◦ Projected $9.12 million investment cost for the option to keep the TRACON in Boise appear
           overstated—nearly $7.4 million or 81 percent—were questionable.




CC-2009-099
                                                                                                                            Enclosure
                                                                                                                           Page 6 of 11




       FAA realized it would not achieve the $24 million in savings as originally expected when the
        TRACON was planned as a co-location, but did not adjust the 2009 business case to reflect
        manpower costs anticipated with a TRACON consolidation.
       Rather, FAA’s business case considered manpower costs and savings as "neutral,” which was
        unrealistic given the following:
         ◦       Under a consolidation, all controllers are trained to work all sectors at the same pay grade, generating
                 a significant pay raise for any new controllers assigned to the Salt Lake City TRACON.

         ◦       FAA’s manpower projections for the Salt Lake City consolidation of Boise controllers were as follows:

                   •   FAA will offer relocation options for to up to eight Boise controllers (FAA estimates possibly four may
                       accept).
                   •   Controllers who elect not to relocate will not be fired or involuntarily reassigned. Excess controllers will
                       remain at Boise to work in the tower and will eventually be eliminated through attrition (e.g., retirements,
                       voluntary departures).
                   •   If none of the Boise controllers relocate to Salt Lake City, Boise will retain up to
                       8 excess controllers at level 8 positions (salary range of $59,841 - $80,785), and Salt Lake City will
                       acquire 10 controllers at level 10 positions (salary range of $73,103 - $98,689).

             ◦     In March 2010, FAA briefed NATCA that a total of 10 additional controllers will be needed in Salt
                   Lake City (Level 10) to handle the Boise workload. That could equate to potentially more than
                   $986,890 in base salary costs alone per year and over $19.7 million over 20 years in base
                   personnel costs for Salt Lake City. In addition, up to eight current Boise TRACON (Level 8)
                   controllers could remain at Boise as excess personnel at a cost of approximately $646,280 per year
                   in base salary and $12.9 million over 20 years, for a potential total as high as $33 million.


CC-2009-099
                                                                                                    Enclosure
                                                                                                   Page 7 of 11




      Our review shows a number of questionable investment costs involved with relocating the
       Boise TRACON operations to the Salt Lake City TRACON (that were not a part of the
       estimated $3.12 million). Specifically, FAA’s $3.12 million in investment costs failed to
       address the following significant costs involved with the relocation:

        ◦ Boise and Salt Lake City TRACONs are not located in airspace with adjoining sectors.
          This creates a number of problems for the Standard Terminal Automation Replacement
          System (STARS) at Salt Lake City, which would have required software modifications.
           Modifications for the STARS system were not included in the investment cost for Salt Lake
            City but were instead put into the STARS national baseline.
           These modifications range from $2 million to $8 million, depending on what source is used,
            and are not planned for use at any other STARS sites.
        ◦ FAA based lifecycle costs on a 40-year model, which is the projected normal life span for
          an air traffic facility; however, Salt Lake City is already 11 years old, reducing its lifespan
          by one-fourth. Therefore, comparing costs over a 40-year span for both facilities was
          not appropriate.




CC-2009-099
                                                                                                       Enclosure
                                                                                                      Page 8 of 11




       ◦ Projected costs do not consider the impact on training at Salt Lake City. Our review
         found that:
               According to the Salt Lake City coordinator for Air Traffic Control Optimum Training Solution
                (ATCOTS), controller training would have been severely impacted by the relocation.
                Unofficial cost estimates were between $2 million and $4 million. In addition, the
                nationwide ATCOTS contract has been already been reduced by 30 percent, further
                impacting the training of new controllers at Salt Lake City.

       ◦ Other opportunity costs associated with training that were not addressed include:

              • 19 developmental controllers at Salt Lake City, who have already been waiting 12 to
                18 months for training slots to become certified, would be pushed to the back of the line to
                allow training for current TRACON controllers on Boise airspace and transferring Boise or
                replacement controllers on Salt Lake City airspace. Training for these controllers could take
                over 12 months to complete.


              • Extra unused STARS Terminal Controller Workstations are currently being used to train
                developmental controllers, which would have been reallocated back to live air traffic control
                to control Boise and Provo traffic. The ATCOTS Coordinator indicated that this would further
                delay training.



CC-2009-099
                                                                                                             Enclosure
                                                                                                            Page 9 of 11




       Our review found that approximately $7.4 million, or 81 percent, of the investment costs
        for the alternative to keep the TRACON in Boise were likely overstated:

            ◦   FAA’s 2009 business case reassessment added additional building construction costs that were
                already funded as part of the $15.5 million ATCT/TRACON replacement that Congress provided.
                Specifically, we identified $4.15 million in investment costs for parking lots, driveways, security
                fencing, and internal building renovation, all of which are already incorporated into the facility
                construction costs.

            ◦   Additionally, $3.25 million was included in the investment costs to acquire and install a STARS
                system for the Boise TRACON. However, FAA does not have any additional STARS systems available
                or under contract at this time. A Common Automated Radar Terminal System (CARTS) IIE system is
                available in FAA inventory that can be installed and could be upgraded under segment 1 of FAA's
                Terminal Automation Modernization Replacement Phase 3 modernization program. This would cost
                significantly less than purchasing a new STARS system.


           In addition, conditions on the ground at the new Boise facility were not reflected
            accurately in the business case or relooks. For example, FAA Headquarters believed that
            the space identified on the plans as future TRACON space in the new base building did
            not include the necessary infrastructure to function as a TRACON. Our visit and
            interviews with site engineers indicated that this assumption is incorrect.




CC-2009-099
                                                                                                             Enclosure
                                                                                                            Page 10 of 11



        As FAA transforms the Nation’s air transportation system, facility consolidations and realignments—
         a controversial and sensitive effort—will assume greater importance and urgency, as evidenced by
         provisions in the Senate version of the FAA reauthorization bill which call for an “Air Traffic Control
         Modernization Oversight Board” to oversee FAA’s consolidation and realignments efforts.


        We briefed FAA officials on the results of our review, which are intended to provide insight into
         FAA’s business case, not to provide guidance on if, when, or how FAA should proceed with any
         realignment. In addition, given FAA’s recent decision to cancel the TRACON transfer, we make no
         specific recommendations to FAA but identified some lessons learned to help improve the
         soundness and overall transparency of future business cases. These include:

           ◦   Establish a reasonable timeline for automatic/periodic reassessments of business cases, and any
               underlying memorandums of agreement, to ensure that key assumptions that drove the projected
               costs/benefits are still valid. Based on these assessments, be willing to adjust the course of action as
               appropriate.

           ◦   Improve coordination between FAA Headquarters and air traffic control facilities in the field, including
               periodic visits to local facilities.

           ◦   Keep affected employees involved and informed and communicate any changes in the business case
               and underlying assumptions to those directly affected by the outcome.

         If the driving factor behind consolidations is cost savings, then it is important to be as transparent
          and accurate as possible in the business cases. To do otherwise erodes confidence in the
          business decisions made and raises questions as to whether they are in the best interest of the
          taxpayers.




CC-2009-099
                                                                                                                          Enclosure
                                      Boise – Gowen Field                                                                Page 11 of 11




                                           New Tower                      New Tower/Base Building              TRACON Space
                                                                                                                In New Facility
        Old Tower




Old Tower viewed from New Tower
                                                                                                       New Tower UPS Back-up




                                  New Tower / Base building Blueprint showing “Future TRACON” Space




 New Tower / Equipment Room                             New Tower Admin Space                         New Tower / Back-up Generator
